WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Vernon Lee Havens, II

19-1367
v.

Maureen O'Connor, Chief Justice, Supreme. Court of Ohio, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The Honorable Judge Steven Beathard

D I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by
ar member.
Signature

6/22/2020
Benjamin D. Humphrey
(Type or print) Name B
Date.

F Mr.

❑ Ms.

❑ Mrs. D Miss

Isaac Wiles Burkholder & Teetor, LLC
Address Two Miranova Place, Suite 700
City & State Columbus, Ohio
Zip 43215
bhumphrey@isaacwiles.com
Phone 614-221-2121
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQU

IRERECEIVED

CC: Vernon Lee Havens II

JUL - 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

